<html>
<title> - UNRESOLVED INTERNAL INVESTIGATIONS AT DHS: OVERSIGHT OF INVESTIGATION MANAGEMENT IN THE OFFICE OF THE DHS OIG</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 UNRESOLVED INTERNAL INVESTIGATIONS AT DHS: OVERSIGHT OF INVESTIGATION 
                MANAGEMENT IN THE OFFICE OF THE DHS OIG 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON GOVERNMENT ORGANIZATION,
                  EFFICIENCY AND FINANCIAL MANAGEMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 1, 2012

                               __________

                           Serial No. 112-171

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-642 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Government Organization, Efficiency and Financial 
                               Management

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
CONNIE MACK, Florida, Vice Chairman  EDOLPHUS TOWNS, New York, Ranking 
JAMES LANKFORD, Oklahoma                 Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
FRANK C. GUINTA, New Hampshire       ELEANOR HOLMES NORTON, District of 
BLAKE FARENTHOLD, Texas                  Columbia



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 1, 2012...................................     1

                               WITNESSES

Mr. Charles K. Edwards, Acting Inspector General, Department of 
  Homeland Security
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. David V. Aguilar, Acting Commissioner, U.S. Customs and 
  Border Protection, Department of Homeland Security
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Daniel H. Ragsdale, Acting Deputy Director, U.S. Immigration 
  and Customs Enforcement, Department of Homeland Security
    Oral Statement...............................................    33
    Written Statement............................................    35


 UNRESOLVED INTERNAL INVESTIGATIONS AT DHS: OVERSIGHT OF INVESTIGATION 
                MANAGEMENT IN THE OFFICE OF THE DHS OIG

                              ----------                              


                       Wednesday, August 1, 2012,

                  House of Representatives,
Subcommittee on Government Organization, Efficiency 
                          and Financial Management,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2203, Rayburn House Office Building, Hon. Todd Russell 
Platts [chairman of the subcommittee] presiding.
    Present: Representatives Platts, Lankford, Farenthold, 
Towns, and Connolly.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Molly Boyl, Majority Parliamentarian; John Cuaderes, Majority 
Deputy Staff Director; Linda Good, Majority Chief Clerk; 
Mitchell S. Kominsky, Majority Counsel; Mark D. Marin, Majority 
Director of Oversight; Tegan Millspaw, Majority Research 
Analyst; Cheyenne Steel, Majority Press Assistant; Noelle 
Turbitt, Majority Staff Assistant; Jaron Bourke, Minority 
Director of Administration; Beverly Britton Fraser, Minority 
Counsel; Ashley Etienne, Minority Director of Communications; 
and Devon Hill, Minority Staff Assistant.
    Mr. Platts. This hearing of the Subcommittee on Government 
Organization, Efficiency, and Financial Management will come to 
order.
    The purpose of today's hearing is to conduct oversight of 
the Department of Homeland Security Office of Inspector General 
and its management of investigative cases. The Department of 
Homeland Security is the third largest department in the 
Federal Government and has the crucial mission of ensuring the 
United States' safety, security, and that we are resilient 
against terrorism and other threats. Because of the importance 
of DHS's mission, it is crucial that it have a fully capable 
inspector general and staff to provide oversight and 
accountability.
    Over the past few years, DHS OIG has had thousands of open 
investigations that must be properly managed and resolved. Our 
hearing today will review the number of open cases at DHS OIG, 
as well as its recent decision to transfer cases back to 
Immigration and Customs Enforcement and the Customs and Border 
Protection entities.
    As of March 2012, DHS OIG had 2,361 open investigative 
cases. In its latest semiannual report, which covered a six 
month period between October 2011 and March 2012, DHS OIG 
closed only 730 cases. This is 31 percent of DHS's open cases.
    Since 2009 the Office of OIG number of cases has not 
dropped below 2,000 at any point, while the number of cases 
closed has averaged approximately 566 per six month reporting 
period.
    In April DHS OIG announced that it would transfer cases of 
misconduct involving employees at the United States Immigration 
and Customs Enforcement and the United States Customs and 
Border Protection entities back to these agencies for handling. 
In order to make sure that allegations of misconduct were fully 
investigated in a timely manner, 377 cases were transferred in 
April and another 280 transferred in June.
    While transferring OIG's case work may help to ensure 
investigations are resolved more quickly, this process 
certainly must be overseen with great diligence. Allowing ICE 
and CBP to investigate their own misconduct, or staff within 
their entities, could create the appearance of a conflict of 
interest unless proper internal controls are maintained and 
emphasized.
    Additionally, these transfers have resulted in a 68 percent 
increase in the cases at ICE and CBP's internal affairs 
offices. If ICE and CBP do not have sufficient resources to 
manage these cases, it could result in wrongdoing going 
undetected.
    Our hearing today will review how ICE and CBP are managing 
these cases. It will also focus on the OIG's relationship with 
these component entities and how it can better collaborate to 
investigate and manage its cases.
    In 2010, DHS OIG wrote, and I would emphasize not the 
current IG, but prior personnel wrote that its relationship 
with the agency was a longstanding problem due to resistance 
and lack of cooperation with OIG investigations.
    Today we will learn more about that relationship between 
DHS and its OIG and staff, and examine ways to improve 
collaboration from now and into the future.
    The United States is unique in the important role of 
inspectors general. The Inspector General Act of 1978 
established IGs to act as independent watchdogs over federal 
departments and agencies. Today IGs are on the front lines of 
preventing waste, fraud, and abuse across the Federal 
Government. Their role directly benefits both Congress, in our 
oversight duties, and taxpayers by creating a government that 
is more transparent and accountable. In order to do their jobs 
well, IGs need to maintain strong accountability and integrity, 
while fostering a collaborative relationship with the agencies 
they oversee.
    DHS OIG has an extremely important task of overseeing an 
agency that protects our borders, guards against terrorism, and 
ensures the security of our Country here at home. I commend 
OIG's efforts in moving forward in a productive manner, 
especially in the last year and a half, and working with their 
component entities that are represented here today, and 
certainly look forward to the testimony of all three of our 
witnesses and the insights you can share with this Committee.
    With that, I yield to the Ranking Member, the gentleman 
from New York, Mr. Towns, for the purpose of an opening 
statement.
    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing today.
    Today we will focus on the efficiency of investigations 
into employee misconduct at the Department of Homeland Security 
components, Customs, Border Protection, and Immigration and 
Customs Enforcement, ICE.
    Mr. Chairman, I thank you for, again, holding this hearing.
    The largest law enforcement agency in the Country, over 
47,000 law enforcement personnel, are deployed along the U.S. 
borders, at ports of entry and overseas, on a continuous basis 
to secure our borders.
    At ICE, the second largest federal law enforcement agency, 
over 20,000 employees enforce federal laws governing border 
control, customs, trade, and immigration.
    These agencies, along with TSA, form the backbone of our 
homeland security enterprise.
    I want to first acknowledge those that perform their 
missions with integrity and thank them for a job well done. 
Unfortunately, we must turn our attention to the few employees 
who have disgraced themselves and the agencies that employ them 
through acts of personal misconduct, and in many instances 
criminality.
    Some employees come into contact with sensitive, sometimes 
classified, information, and in many cases our national 
security interests lie literally in the palms of their hands. 
Dishonest employees have leaked sensitive information to drug 
cartels, smugglers, and others under investigation. Others have 
taken cash bribes or other favors in exchange for allowing 
contraband or undocumented aliens to pass through our borders.
    More than 140 CBP officers since 2004 have been arrested or 
indicted for acts of corruption. Many others are under 
investigation as we sit.
    Corruption or misconduct occurring at DHS can have greater 
national security implications than misconduct occurring at 
other federal agencies. For this reason, investigations into 
CBR and ICE employees, misconduct and criminality must be dealt 
with swiftly and efficiently.
    The Office of the Inspector General has the primary 
authority within DHS for investigating allegations of 
criminality and misconduct among employees. The inspector 
general has a staff of 219 investigators and a budget of $150 
million to investigate a workforce of over 220,000 employees. 
That doesn't seem to be enough.
    With the escalation of complaints of employee misconduct 
and corruption, and a decreasing IG budget, it is not 
surprising that the IG must find innovative ways to move the 
investigative process forward. The CBC Office of Internal 
Affairs at ICE, the Office of Professional Responsibility, are 
playing a critical role in the investigation of these 
complaints.
    We have to remember that DHS was only created in 2002, when 
Congress joined together previously independent agencies that 
may not have had a history of cooperating with one another to 
resolve cases. But today cooperation between OIG, ICE, and CBP 
is extremely important to securing our border personnel against 
corruption.
    Fortunately, under its current leadership, there is more 
DHS interagency cooperation than ever before. That recent 
positive development addresses a historic weakness present at 
the creation of DHS. I look forward to the testimony of our 
witnesses and hope we can find stronger pathways forward to 
such an important mission, because working together is very 
important, and without it we will not be able to achieve our 
goals.
    On that note, Mr. Chairman, I yield back.
    Mr. Platts. I thank the Ranking Member.
    Before I yield to the gentleman from Virginia, I just want 
to echo very well stated important statement by the Ranking 
Member, that while we are here to talk about investigations of 
cases of wrongdoing, that we make sure we herald the great work 
of the 99 percent plus of the officers, agents, staff of DHS, 
all the entities who do great work, courageous work, are truly 
on the front lines of protecting this Nation and, Mr. Towns, I 
thank you for that reminder that I intended to include and did 
not reference. Well stated.
    We are grateful to each of you and your staffs and your 
offices who are out there on the front line.
    With that, I yield to the gentleman from Virginia, Mr. 
Connolly, for an opening statement.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I want to commend you personally for your 
longstanding commitment to holding fair and substantive 
oversight hearings that not only highlight deficiencies in 
government programs, but, importantly, do so in a productive 
manner, as you just, in fact, stated, that allows members to 
work in a bipartisan fashion to implement corrective actions. 
We are going to miss you around here.
    Today's hearing is focused on the DHS OIG's performance 
adjudicating cases and coordinating investigative efforts with 
the U.S. Immigrations, Customs and Enforcement Office of 
Professional Responsibility, and the U.S. Customs Border 
Protection's Office of Internal Affairs.
    However, I believe this hearing actually highlights a far 
more serious fundamental management challenge that can 
contribute to impeding our efforts across the Federal 
Government to prevent and detect waste, fraud, and abuse, while 
promoting departmental efficiency, economy, and effectiveness: 
longstanding vacancies in key agency leadership positions.
    The U.S. Senate's inability to efficiently confirm 
presidential nominees has resulted in a dysfunctional oversight 
system that increases the threat of fraud and abuse going 
undetected, while, really, raising a question of the Senate's 
constitutional responsibility to provide advice and consent in 
a timely fashion. Unfortunately, it has become common for 
months to pass before non-controversial nominees are given an 
up or down vote.
    A disgraceful, yet increasingly common experience is that 
of Michael Horowitz, his nomination to be inspector general for 
the Department of Justice. That was announced on July 29th, 
2011, but did not receive a vote in the Senate until March 29th 
of this year, at which point he was approved unanimously.
    Most concerning is that IG vacancies appear most prevalent 
among IG positions for the Federal Government's largest and 
most complex agencies, such as the Department of State, which 
has been without a permanent IG for 1,658 days; the Department 
of Defense, which has been without a permanent IG for 220 days; 
and the agency that is the focus of today's hearing, DHS, we 
are lucky to have an acting IG, but it has been without a 
permanent IG for 250 days.
    Fortunately, there appears to be bipartisan recognition 
that OIGs require a permanent Senate confirmed leadership to be 
most effective and to best serve the American people.
    Senator Grassley, a Republican from Iowa, stated recently 
that ``even the best acting inspector general's lack the 
standing to make lasting changes needed to improve his or her 
office.'' I concur in that sentiment and hope even now that we 
can move forward to ensure federal IGS are adequately staffed, 
funded, and empowered to reduce wasteful spending, increase 
agency efficiency, and ultimately improve the lives of the 
people we serve.
    I thank you, Mr. Chairman.
    Mr. Platts. I thank the gentleman. You make very important 
relevant points here about the importance of the confirmation 
process and giving the Department a fully confirmed IG, and 
hopefully that will happen sooner than later. Not because we 
are not grateful for the current work of the acting, but the 
points that the gentleman made in giving that additional 
standing and presence of a Senate confirmed IG.
    We are going to keep the record open for seven days for any 
members who want to submit opening statements or other 
materials, and we will now move to our testimony from our 
witnesses.
    We are honored to have three very distinguished public 
servants with us: Mr. Charles Edwards, Acting Inspector General 
at the Department of Homeland Security; Mr. David Aguilar, 
Acting Commissioner of the United States Customs and Border 
Protection; and Mr. Daniel Ragsdale, Acting Deputy Director at 
United States Immigration and Customs Enforcement.
    Pursuant to our Committee rules, if I could ask the three 
of you to stand and raise your right hand to be sworn in.
    Do you solemnly swear or affirm that the testimony you are 
about to give this Committee will be the truth, the whole 
truth, and nothing but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Platts. Let the record reflect all witnesses answered 
in the affirmative.
    You will see a light system in front of you. The timer is 
set for five minutes, but if you need to go over that, that is 
understandable. We appreciate your written testimonies you have 
given us; I call it my homework in preparation for the hearing 
and allow me to have a better understanding and better exchange 
with you here today. But we are glad to have you here in person 
and share your oral testimony, so it is at five, but if you 
need to go over, don't worry about that.
    We are glad to have you. Mr. Edwards, if you would like to 
begin.

                       WITNESS STATEMENTS

                STATEMENT OF CHARLES K. EDWARDS

    Mr. Edwards. Good morning, Chairman Platts, Ranking member 
Towns, and distinguished members of the Subcommittee. Thank you 
for inviting me to testify today about the critical 
investigative work of DHS OIG.
    OIG has 219 criminal investigators deployed at 33 offices 
around the Country, with a concentration of resources in the 
southwest. While OIG has a primary focus on employee 
corruption, it also has jurisdiction for allegations involving 
DHS contractors and financial assistance beneficiaries, 
including disaster assistance recipients.
    Both the personnel and organizational independence of OIG 
investigators, free to carry out their work without 
interference by agency officials, is essential to maintaining 
public trust in the DHS workforce. Resulting complex corruption 
investigations is challenging and time-consuming. OIG makes 
every attempt to expedite these investigations, but some of the 
more complex investigations take time to obtain the necessary 
evidence of corrupt activity and identify any additional 
employee involvement.
    OIG recognizes the importance of ensuring that corrupt CBP 
officers and border patrol agencies who are willing to 
compromise homeland security for personal gain are quickly 
removed from any position that would allow harm to the Country, 
so we work closely with the components to balance homeland 
security needs, while investigating thoroughly to expose all 
wrongdoers, not just a single employee against whom allegations 
have been made.
    Generally, once a matter has been presented to the U.S. 
Attorney's Office and accepted for prosecution, the majority of 
investigative activity is complete. However, OIG still 
classifies the case as open until all judicial activity is 
done, which may take years.
    Although case complexity and time to prosecute may extend 
some cases for several years, over 70 percent of OIG's criminal 
investigation cases have been open less than 24 months.
    In August 2011, the CBP commissioner and I signed an 
agreement to enhance joint efforts against border corruption 
within the ranks of CBP workforce. Cooperative efforts between 
OIG and CBP IA have provided OIG with additional assets to meet 
the challenge of CBP's significant and ongoing expansion. Our 
agreement established and integrated DHS's approach to 
participation with other agencies investigating border 
corruption, recognizing both OIG's obligation to work 
independently of DHS's components and the need for 
collaboration and information sharing among law enforcement 
entities.
    A key component of our investigative strategy is to 
leverage limited resources and share intelligence with law 
enforcement at all levels. DHS OIG has agents participating in 
border corruption task forces in many parts of the Country. 
These cooperative relationships ensure that different law 
enforcement agencies are not pursuing the same targets, which 
compromises law enforcement agents' safety and is a duplication 
of effort.
    With respect to information sharing, the OIG and FBI have a 
mutual responsibility under the attorney general guidelines to 
promptly notify one another upon initiation of any criminal 
investigation. OIG timely meets this responsibility.
    By fiscal year 2011, OIG's policy to open allegations of 
employee corruption or compromise of border or transportation 
security, combined with the expanding workforce, led to a 95 
percent increase over fiscal year 2004 of complaints involving 
CBP employees. The growth of OIG's cadre of criminal 
investigators did not match the growth in complaints. The 
increased volume led to increased case openings and the DHS OIG 
investigative staff was taxed beyond its capacity.
    As a part of my commitment to ensuring that allegations of 
employee corruption are fully investigated, ICE Director Morton 
and I agreed, in April 2012, that OIG would transfer 370 cases 
involving CBP and ICE employees to ICE for completion. As a 
part of OIG oversight of the component internal affairs 
elements, OIG is requiring periodic reports from CBP on the 
status of the transferred investigations until each is closed. 
To date, ICE OPR has reported that it transferred about one-
third of the cases it received to CBP IA and has closed 60 
cases.
    Also, in June 2012, OIG transmitted 287 completed 
investigations involving unknown subjects to the relevant DHS 
component for appropriate action. Because the cases were 
completed, OIG is requiring no follow-up.
    We appreciate the Subcommittee's attention and interest in 
OIG's criminal investigative work. We will continue to pursue 
collaboration with all our law enforcement partners to ensure 
employee corruption does not jeopardize homeland security.
    Chairman Platts, this concludes my prepared remarks. I 
would be happy to answer any questions that you or the members 
may have. Thank you, sir.
    [Prepared statement of Mr. Edwards follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Platts. Thank you, Mr. Edwards. I appreciate your 
testimony.
    Commissioner Aguilar, before you begin, I just want to 
recognize, as I referenced, appreciate the service of all three 
of you, but knowing, as we have talked, of your now over 34 
years of service, I want to especially thank you for your 
service and leadership to our Nation and all of our citizens, 
and that dedication especially in such an important role with 
border protection.
    Please proceed.

                 STATEMENT OF DAVID V. AGUILAR

    Mr. Aguilar. Thank you, Chairman. Chairman Platts, Ranking 
Member Towns, and distinguished members of the Subcommittee, 
thank you for the invitation to speak about the ongoing 
collaboration, the great collaboration, I believe, between U.S. 
Customs and Border Protection, DHS's Office of Inspector 
General, and Immigration and Customs Enforcement. Our efforts 
to combat corruption and maintain integrity within our ranks 
are critically important to CBP and to the public that we 
serve.
    I would like to begin by recognizing the commitment, the 
bravery, vigilance, honor, and the character demonstrated by 
the overwhelming majority of CBP agents and officers who put 
their lives on the line every day to protect our Nation.
    CBP has more than 60,000 employees, including over 47,000 
uniformed agents and officers who carry out CBP's critical 
mission of securing our Nation's borders, while expediting 
lawful trade and travel. We recognize that public service is a 
public trust. That public service is a public trust is at the 
forefront of our interest.
    At the center of CBP's core values is integrity, and it is 
of the utmost importance that all of our employees are guided 
by the highest ethical and moral principles. Tragically, 
embarrassingly, a small number within our ranks have disgraced, 
dishonored the proud men and women who serve honorably and with 
distinction each day to protect our Nation.
    Although the number of CBP employees who have betrayed the 
trust of the American public and their peers is a fraction of 
one percent of our workforce, we continue to focus our efforts 
on rooting out this unacceptable and deplorable behavior. One 
act of corruption is one too many. It is unacceptable.
    CBP prides itself on being a family. However, when one 
member of this family strays into criminality, he or she cannot 
go unchecked and without consequence. Our most valuable, and we 
recognize, sometimes vulnerable, resource has been and will 
continue to be our employees. They are key to our success in 
protecting this Nation. And it must be emphasized that no act 
of corruption within our agency can or will be tolerated.
    Collaboration amongst us seated at the table here is key to 
combating corruption and other forms of serious misconduct. We 
rely on our partnerships with the Office of Inspector General, 
with ICE, with FBI to work towards this common goal.
    In December of 2010, CBP and ICE executed a Memorandum of 
understanding that established protocols for agents with CBP's 
Office of Internal Affairs and ICE's Office of Professional 
Responsibility to collaborate in the investigation of CBP 
employee-related misconduct and corruption. CBP and ICE are 
jointly working currently over 300 cases, many of which are a 
result of a transfer that Mr. Edwards just talked about, that 
came about as a result of our May 2012 agreement.
    To date, ICE's Office of Professional Responsibility and 
CBP's Office of Internal Affairs have closed over 60 of these 
cases.
    In August of 2011, CBP entered into a similar MOU with the 
DHS OIG and deployed 14 CBP internal affairs agents to OIG 
offices across the United States. This had never happened 
before. Today, CBP internal affairs agents are working side-by-
side with DHS OIG agents on approximately 90 CBP employee-
related investigations of alleged corruption and misconduct.
    Collaboration with our DHS partners has greatly enhanced 
our effectiveness and has given CBP leadership unprecedented 
insight into the threat that potentially corrupt employees may 
pose to the homeland, giving us the opportunity to make 
adjustments, to look at our processes, and instill new 
workforce policies in order to avoid any kind of corruption.
    Consistent with ICE and OIG efforts to pursue criminal 
investigations, CBP is also striving to more effectively use 
administrative authorities that rest within our capabilities to 
mitigate the threat caused by CBP employees accused of 
corruption during the course of an investigation. This may 
include reassignment to administrative duties, administrative 
leave, indefinite suspension, suspension of law enforcement 
authorities, or other appropriate actions. This forward-leaning 
approach provides CBP with the flexibility to address the 
threat posed by employee corruption and misconduct in a manner 
that reduces the impact on the agency, our mission, and the 
responsibilities to the American public.
    Chairman Platts, Ranking Member Towns, members of the 
Subcommittee, again, we thank you for the opportunity to 
testify today. Integrity is the great cornerstone of everything 
that we do at CBP on a daily basis in protecting this Nation. I 
look forward to addressing any questions that you might have of 
us.
    [Prepared statement of Mr. Aguilar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Platts. Thank you, Commissioner.
    Mr. Ragsdale?

                STATEMENT OF DANIEL H. RAGSDALE

    Mr. Ragsdale. Good morning. Thank you. Chairman Platts, 
Ranking Member Towns, and distinguished members of the 
Subcommittee, on behalf of Secretary Napolitano and Director 
Morton, thank you for the opportunity to appear today and 
discuss the ways in which ICE upholds DHS's standards for 
integrity and professionalism.
    With more than 20,000 employees in 72 offices around the 
world, ICE is the second largest federal investigative agency. 
ICE promotes homeland security and public safety through 
criminal and civil enforcement of federal laws governing border 
control, customs, trade, and immigration. While the vast number 
of ICE and DHS employees perform their law enforcement and 
other duties with honor every day, isolated acts of employee 
misconduct do sometimes occur.
    As noted in my written testimony, ICE's Office of 
Professional Responsibility is a robust program with over 500 
employees and 252 special agents trained to investigate border 
crime and misconduct offenses. ICE's Office of Professional 
Responsibility works closely with our partners in DHS and CBP 
to ensure that a vigorous process exists to ensure the 
integrity of our shared mission.
    To build on the partnership between DHS IG, ICE, and CBP, 
two MOUs were executed to ensure close collaboration among the 
agencies. In December 2010, ICE and CBP entered into a 
Memorandum of understanding that assigned CBP internal affairs 
personnel to ICE OPR to assist in investigations of CBP 
employee criminal misconduct. In August 2011, the IG and CBP 
executed a similar memorandum of understanding. I can candidly 
say that we did not always have this level of collaboration. 
However, I am proud to report that the MOUs have reinforced 
ICE's commitment to providing complete and timely awareness in 
cases involving criminal misconduct by DHS employees.
    One example of the collaboration with our partners was 
found in the investigation of former CBP officer Devon Samuels 
in Atlanta. This individual used his position of trust to 
bypass TSA security measures to smuggle drugs, money, and guns 
for a Jamaican drug trafficking organization. ICE partnered in 
this effort with CBP's internal affairs and the DHS IG and 
federal, local, and international private partners. The 
investigation led to 17 arrests and the seizure of 15 guns, a 
kilogram of cocaine, more than 300 pounds of marijuana, a 
quarter of a million units of ecstacy, and a quarter of a 
million dollars in U.S. currency. Samuels ended up being 
sentenced to eight years in jail.
    Likewise, in an ICE-OPR-led case with support from the FBI, 
former ICE special agent Jovana Deas was criminally convicted 
for abusing her position of trust to share information from law 
enforcement databases with members of a drug trafficking 
organization. Following this ICE-led investigation, she was 
arrested, pled this February to a 21 count indictment, and 
resigned her position. She was recently sentenced to two and a 
half years in jail.
    While not every case involves the kind of allegations I 
just described, we regard every example of employee misconduct 
as potentially undermining our critical mission, and we take 
every matter that comes to our attention seriously.
    As you know, as part of our continuing commitment to 
effective law enforcement, in May 2012, the DHS IG transferred 
approximately 370 cases to ICE regarding criminal and 
administrative misconduct allegations. ICE and CBP promptly 
began working to determine the next investigative steps needed 
in each case. Since we received the cases, ICE has transferred 
155 non-criminal cases to CBP for administrative action and 
returned 4 to the IG. 195 cases remain open with ICE OPR, with 
assistance from CBP IA.
    Further, I am proud to note, as the commissioner said, our 
partnership with CBP has already been effective in closing over 
60 cases. As we strive toward swift resolution of these cases, 
regardless of the outcome, we look forward to resolving the 
remaining cases as efficiently as possible.
    We are heavily invested in addressing all issues of 
misconduct to ensure that ICE upholds public trust and conducts 
its mission with integrity and professionalism. I am proud of 
the honesty of the overwhelming majority of ICE employees and 
assure you that the rare cases of employee misconduct are dealt 
with swiftly and fairly.
    Thank you again for the opportunity to address you today, 
and I welcome any questions you may have. Thank you.
    [Prepared statement of Mr. Ragsdale follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Platts. Thank you, Mr. Ragsdale.
    I will yield myself five minutes for the purpose of 
questioning to kick things off.
    General Edwards, I will start with you in the sense of just 
the overall big picture and the number of cases, as referenced 
in my testimony, the number of open cases that remain, now over 
2,000 for several years.
    In your written testimony, as well as here today, in 
talking about the demands on your workforce and a significant 
increase in the number of open cases in recent years, and there 
is a chart that shows the number of open cases kind of spiking 
up here; whereas, the number of closed cases is pretty level. 
Is it fair to say that one aspect of the number of open cases 
is related to the huge ramp up in border protection officers, 
customs, so we have many more personnel up there, and with more 
personnel comes greater risk, especially with the type of enemy 
that we are dealing with here, the drug cartels and terrorist 
organizations, what we are guarding against, that, first, the 
amount of increase in that workload is directly due to the 
increase in the size of these component entities?
    Mr. Edwards. Thank you, Chairman. Let me start by saying 
that the vast majority of CBP employees are not having this 
corruption issue. Our border patrol has increased over 38 
percent in the last several years and OIG has remained 
relatively flat. OIG is fully supportive of the President's 
budget; however, we have been asking for resources over the 
last several years.
    As of July 15, we have 1,591 open cases. We have done a 
number of things internally, and also a number of things, based 
on Secretary Napolitano's leadership, both Director Morton and 
Commissioner Aguilar and myself met to force multiply and get 
more resources to address the cases. Out of the 1,591, there 
are 661 employee corruption and there is about, non-employees, 
473; and a majority of them, 457 of them, are unnamed subjects.
    We have done a number of things internally. One is when we 
have tried to vet this turnout the unnamed subjects to a 
potential lead and then we still kept holding on to it. What we 
have done now is when we cannot get any further with that, they 
close that. That was the 287 that we transferred to ICE on the 
second round. We have a holding it and trying to come up with 
some more information, but it is not getting us anywhere. So 
that was holding us.
    The other thing is also, the way we categorize our cases, 
we have open and closed. When you look at the number of cases 
that are open, a lot of these cases, well over 70 percent of 
these cases are open less than two years. But what we found 
was, or what we are finding is that a number of these cases we 
have done the investigative work and we are waiting for the 
U.S. attorneys for some judicial action. So now we are have 
categorized our system to better capture that.
    So these are some of the internal things we are doing, and 
also working with our partners, the commissioner and John 
Morton, we are able to force multiple and work the cases. So 
there is no backlog; we have this under control.
    Mr. Platts. Let me come back to that, about the backlog. So 
internally you have requested additional funds for more 
investigation related personnel, but that has not been 
included, ultimately, in the decision, what is submitted up 
here as far as the President's budget?
    Mr. Edwards. Right. Every year since 2009 I have been 
requesting 50 investigators.
    Mr. Platts. Yes. As far as not having a backlog, with over 
1500 still open and, again, recognizing the limitation of your 
resources, there is only so many investigators you can assign 
to pursue these cases, what would constitute a backlog? If it 
is over 2,000 or at what point do you have a backlog that each 
of these cases--because I don't think, of the ones that are 
open, are all 1,500-plus actively being worked?
    Mr. Edwards. Yes, sir.
    Mr. Platts. So none are sitting, waiting for attention?
    Mr. Edwards. No, sir.
    Mr. Platts. Okay.
    Mr. Edwards. What has happened, as you indicated earlier, 
out of the 2,061 open cases, our average caseload for an agent 
was well over 12 cases per agent. These are some of the most 
complex. If it is a FEMA disaster relief fraud case, an agent 
can hold up to 22 to 25 cases. But every one of these cases 
were worked, but it was just the volume of it was too much for 
them to handle. And then we were also holding on these unnamed 
subjects. So working this partnership, we were able to transfer 
some of these. But there has not been any case that has been in 
a backlog or pending or not being investigated.
    Mr. Platts. Okay.
    Mr. Ragsdale, of the 270 or 280 or so cases that were 
transferred back most recently that were the ones that were 
unnamed and ICE kind of ran the distance on them, couldn't find 
anything, transferred back, where do those stand now with ICE? 
Are they still being looked at to see if you can identify other 
leads or are they being closed out? What is the status?
    Mr. Ragsdale. Well, that is exactly right. We are obviously 
looking at every case to make sure that there is no 
investigative steps that are outstanding, but as the inspector 
general said, at least in the IG's view, those cases should be 
closed, so we will obviously do just a quick independent look 
to see if there is any logical next steps that could be gleaned 
from our vantage point and, if not, then they will be closed.
    Mr. Platts. Quick final question. I am way over my time 
before I go to the Ranking Member. To all three of you, are you 
aware of any cases that because of the volume and the increase, 
without the increase in staffing to account for the increase in 
volume, that statute of limitation on a possible criminal 
charge has run because of just the inability to get all the way 
through that case in a timely fashion?
    Mr. Edwards. No, sir. It is the agents' responsibility and 
the manager at the local office to make sure that they work 
with the U.S. Attorney's Office to make sure that the statute 
of limitations does not run out. If there is a potential for 
that to happen, we all, working with our components, we always 
start working the HR piece of it so the administrative action 
can take place. We haven't gotten anywhere where the statute of 
limitation has run out.
    Mr. Platts. So when you talk about open cases with the U.S. 
Attorney's Office and kind of waiting, it is not to the point 
where you are waiting and, while you are waiting, a statute is 
running? You are tracking that so that, if you are getting 
close, it gets a higher attention, trying to make sure that 
charges are properly filed and the statute is told?
    Mr. Edwards. Absolutely, sir. Another thing we have done 
internally with our case management system is an agent is 
supposed to submit a memorandum of activity when he meets with 
the U.S. Attorney's Office to get an update of the case, to see 
where it is. That information needs to be uploaded into our 
case management system and his or her immediate supervisor 
should also be approving that. We also have the ability at 
headquarters in DHS OIG now to randomly go and select, and we 
also have alerts in place so we are aware of this and make sure 
that we take active steps.
    But also one point, sir, is while we are working, because 
many times the U.S. attorney would require us to get multiple 
transactions to prove an intent, but just in case the U.S. 
attorney does not accept it, we get the components involved 
early on so the HR piece of it can start so we are not waiting 
to the tail end to do that part of it.
    Mr. Platts. Okay.
    And Commissioner Aguilar, Mr. Ragsdale, as far as your 
knowledge of any cases where the statute has run, are you 
familiar with any?
    Mr. Ragsdale. From the ICE OPR perspective, we have not 
seen any cases where the statute of limitations has run in the 
criminal context. And as the IG said, the administrative 
context does not have an applicable statute of limitations, so, 
from our perspective, we have not seen any cases that have 
become stale because of the statute.
    Mr. Aguilar. My response would be the same. We count on the 
case management and our two partnerships.
    Mr. Platts. Okay. Thank you.
    I yield to the Ranking Member for the purpose of questions.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me just ask all of you how have the MOUs improved the 
working relationship and information sharing between your 
organizations. Has it helped? Right down the line. Mr. Edwards? 
Right down. Yes.
    Mr. Edwards. Thank you, sir. Absolutely. There is 
absolutely no turf battles between OIG, CBP, or ICE or the 
Bureau. Sitting up at the component head level, we have 
excellent working relationship. We need to put that in writing 
and make sure that the agents at the field office level work 
well together; we just have to have a process in place. And 
getting this MOU to work together, because if you look at it, 
it is a DHS problem and we have to address this together.
    If you don't have the resources, you have to use the force 
multiplier. And having this MOU signed with CBP really has 
enabled CBP agents to work under our supervision, but also have 
given the commissioner meaningful information that he was 
looking for, because getting rid of an employee is not just the 
immediate solution. For example, if you have a weed, just 
pulling out the weed isn't going to help; you need to get to 
the root of the problem. And working jointly with us and 
sharing that information with the commissioner has been very 
fruitful.
    Mr. Towns. So duplication is not a problem?
    Mr. Edwards. Well, there is no duplication, sir, because we 
are trying to avoid that. That is why we are working together, 
we are working the same case. There is well over 90 cases, as 
the commissioner talked about, that we are working together. 
They are not working independently or we are not working 
independently; we are working jointly together under our 
authority. So, one, the IG's independence is never sacrificed. 
We are transparent. At the same time, the commissioner gets 
meaningful information on where the cases are.
    Mr. Aguilar. Congressman, I would answer your question in 
the following manner. The current relationship that we have 
between our three organizations is unprecedented. The level of 
transparency, both on the quantity, the type of issues that we 
are facing, the cases that we are facing, and the qualitative 
efforts ongoing between us we have never seen before.
    As to the duplicity duplication effort, because of the 
relationship that we have, it provides for de-confliction at 
the lowest level and at the earliest time in any one of these 
cases. So it gives me, it gives us in CBP an insight that we 
have never had before, gives us the ability to act as quickly 
as possible in support of removing any possibility of integrity 
lapses, ethical lapses and things of that nature. So I am very 
happy to report that we are at a level that is tremendous. I 
think all of us would agree that we have some challenges ahead 
of us, but with the processes in place, we have good processes 
in place to continue chipping away at the things that may 
challenge us in the future.
    Mr. Towns. It is encouraging.
    Yes?
    Mr. Ragsdale. And I would just add that what the MOUs do is 
balance very nicely some competing interests. If either the IG 
or ICE OPR has a criminal case open on an employee, we 
certainly want to balance the integrity of that investigation 
to make sure that it is secure in itself. Having said that, 
there has to be transparency to CBP and ICE managers to make 
sure that the extent that employee's ability to damage border 
security is limited. So we see a very nice balance in these 
MOUs that balance those competing interests.
    And certainly from the ICE perspective, as we know that 
employee corruption does not exist in a vacuum, and as we look 
at transnational border crime, ICE homeland security 
investigations often has paralleled investigations that may in 
fact be an umbrella of a criminal strategy of which the 
employee misconduct was only one piece. So we are seeing a very 
good level of coordination among us, as well as sort of a very 
integrated strategy to make sure that the employee misconduct 
is not allowed to sort of damage border security.
    Mr. Towns. Let me put this properly out. Have you evaluated 
overall trends or patterns of corruption that could lead to 
problems? Have you looked at that in any way, the overall 
pattern? I guess to you, Mr. Edwards. The overall pattern in 
terms of the trends that have led to corruption that you could 
point to something specific.
    Mr. Edwards. Well, if you look at the CBP or the border 
corruption, the drug cartels have the resources, the money, and 
they have the technology, and they want to infiltrate DHS 
employees. Not only just getting to one corrupt employee, and 
corrupting the employee could be for--the employee could be 
going through financial difficulties, gambling debts, or sexual 
infidelity, and the drug cartels know this, so they target this 
one employee.
    So just by getting rid of that one employee is not a 
deterrent, because you need to make sure these law enforcement 
officers, there is a process in place, and if there is 
corruption, the penalty is you are going to be, hopefully, 
serving time. So just getting rid of the employee is not going 
to be helpful.
    Also, like I indicated earlier, we need to get to the root 
of the problem and see what is causing that and get rid of 
that. So as we are looking at--but at the same time it is just 
a small percentage of the entire CBP workforce, so I don't want 
to say that the entire CBP is a problem; there is just a very 
small number, and these small numbers are getting influenced by 
the drug cartels.
    Mr. Towns. Do you think any kind of special training would 
make a difference?
    Mr. Aguilar. Congressman, you have asked some very, very 
important questions here, and, if I might, and this goes to one 
of the questions that the Chairman asked. The successes that we 
have had in hardening the borders to the degree that we have 
and making them as safe as they are today, which, by the way, 
they are safer today than they have been in decades, has caused 
some of the situations that we are looking at. The Chairman's 
question as to the escalation, in my years of service, it used 
to be that what we used to worry about the most was the dopers, 
the alien smugglers, the coyotes basically walking around us, 
getting around us because there was just not enough of us in 
physical presence, in technological capability, investigators 
and things of that nature.
    As a Country, we have ramped up our capability tremendously 
over the last eight, nine years, especially over the last two 
to three years. What that has caused now is because they can no 
longer go around us, below us, over us because we are in the 
water, we are in the air, we are actually have tunnel detection 
and thing of that nature, now they come at us, directly towards 
our employees, trying to corrupt us. So that is one of the 
reasons. So our success is part of the issue here, so we need 
to recognize that.
    And then every time that we take a look for developing 
trends, we look at the stats, we look at the numbers, we look 
at activities and things of that nature. Some quick stats that 
we have looked at: of the 141 cases, the average time in 
service of the officers that have fallen by the wayside is 
about 9.2, 9.3 years in service. We took a look at the time 
frame of the so-called hiring surge, between 2006 and 2009; a 
total of 21 employees hired during that time surge are part of 
that 141. Very small compared to the over 9,000 border patrol 
that we hired. So we take a look at those trends all the time.
    One of the most important things that we do, which goes to 
the latter part of your question, as to training or anything 
else that we take a look at, is we now take a look and de-
construct at every opportunity every one of these corruption 
cases, looking to whether it was a failure of the individual to 
go corrupt and, if so, was there a failure on the part of 
leadership on procedural processes that we need to take a look 
and make adjustments in order to tighten up a process, or is it 
an organizational process that we need to take a look at. So we 
are constantly looking for those trends and for ways to address 
it.
    One of the things that we often do is focus on what I would 
call the obvious. When we take the actions that we take on 
investigating allegations, we need to do that and we need to do 
better and we need to do more. That is what I refer to as the 
reactive portion of our responsibility. Again, I reiterate, do 
better and do more, as we are doing today.
    But more importantly to me, from an organizational 
standpoint, is taking a look at what we can do preemptively, 
what we can do proactively to constantly be persistent in 
trying to prevent integrity lapses or corruption situations, do 
more of the reactive and then do a heck of a lot more in the 
area of sustaining a culture that is just not accepting of any 
lapses in integrity and corruption.
    Mr. Towns. Thank you very much. Thank you.
    Mr. Platts. I thank the gentleman.
    Mr. Towns. Mr. Ragsdale?
    Mr. Ragsdale. The only thing I would add is I think one of 
the things that we have seen is we look at border crime and 
sort of transnational criminal organizations. One of the 
reasons why we are particularly effective at locating what is, 
thankfully, a very small number of employees is the folks in 
ICE OPR come from homeland security investigations, where they 
are trained or ready to investigate border crimes.
    So we see a technique here to exploit employees, as the 
commissioner said, because of the hardening and security that 
exists on the border now. So as we look at sort of drug 
trafficking organizations', nailing smuggling organizations' 
ability to move both contraband and people across the border, 
we see this as a technique and we see these robust misconduct 
investigations in the larger strategy to combat transnational 
crime.
    Mr. Towns. Thank you.
    Thank you, Mr. Chairman, for your generosity.
    Mr. Platts. You are welcome.
    I now yield to the distinguished gentleman from Texas, Mr. 
Farenthold.
    Mr. Farenthold. Thank you very much. I would like to first 
start and ask Mr. Edwards kind of a Texas based question, but 
it also has huge national implications. The DHS OIG is under 
grand jury investigation for falsifying documents out of the 
McAllen Office. Can you give us an update, understanding that 
there is obviously litigation involved, as to what is happening 
there and what has happened to the personnel in that office?
    Mr. Edwards. There is a criminal investigation by the 
Department of Justice and I am not at liberty to comment on 
that, sir. I would be glad to come by and talk to you in a 
private setting.
    Mr. Farenthold. Can you tell us what has happened to the 
agents there? The Center for Investigative Reports has said, I 
think, 11 of them are on administrative leave and others are 
being transferred. Can you tell me if that report is accurate?
    Mr. Edwards. There are 8 people on administrative leave.
    Mr. Farenthold. Well, my concern is you have to be very 
worried when the watchdog organization is having some problems. 
Do we have an issue where there is such a pressure to get cases 
turned out that we are doing sloppy work or there is something 
encouraging employees to take shortcuts?
    Mr. Edwards. Without getting into specifics of that 
investigation, sir, I want to point out that there is not an 
overload, there are not too many cases that an agent has to 
work. I have and we have put effective processes in place to 
ensure that the integrity of our cases are maintained. We have 
policies and procedures both from an agent perspective and also 
from a case management and a review process that there is 
integrity in the work that we do.
    Mr. Farenthold. Well, with the number of investigations 
going on, not just within your organization, but within the 
government in general, you see the length of time it is taking 
getting longer and longer, and in a lot of instances employees 
under investigation are on administrative leave, and we are 
basically paying them to sit at home. So obviously the delay is 
costing the taxpayers some money.
    Can you talk a little bit about the decision-making 
process, about what the OIG determines they are going to 
investigate versus what they refer back to the various internal 
affairs or professional responsibility departments of other 
agencies? What are the guidelines there or the general 
principles that are in place?
    Mr. Edwards. According to the IG Act and Homeland Security 
Act and our internal management directive, all employee 
corruption criminal investigation comes to the OIG and OIG 
opens these allegations and works these cases not by 
themselves; we work jointly with many of our partners. For 
instance, in the 1,591 cases I talked about that are open, we 
have about 18 cases we are working with the BCTF even though we 
haven't signed a MOU there; we are working with the FBI on 142 
cases; and we are working on a number of cases internally with 
ICE OPR and with ICE HSI and with CBP IA. So we open the case 
and if there are cases that we are not going to work them, we 
transfer them over to ICE OPR. But we still have very strict 
and stringent internal controls and reporting process to report 
back to us.
    Mr. Farenthold. Now, does that leave you the resources? I 
always envision the way it should work is the Office of 
Inspector General is a big picture organization that is looking 
for waste, fraud, and abuse almost on an institutional basis, 
while the internal affairs is more towards an individual agent 
or officer. Do you have the resources to do investigations of 
the big picture? Is there enough resources for you or people in 
your office to be looking at the forest, instead of just 
focusing on the trees?
    Mr. Edwards. Absolutely, sir. That is why we have taken a 
number of internal steps to better and streamline our processes 
internally, and also working with our partners within DHS, but 
at the same time looking at the big picture, that is what our 
audit function does; they look at systemic issues, they look at 
programmatic issues, and that is also what our inspections 
division does. So apart from looking at a specific individual 
and allegation that an investigation looks, the overarching for 
audit function and there is not just at CBP or TSA or ICE, we 
look at DHS as a whole, and our audit function does a number of 
reports on that.
    Mr. Farenthold. Thank you very much. I see my time has 
expired.
    Mr. Platts. I thank the gentleman.
    I now recognize the distinguished gentleman from Virginia, 
Mr. Connolly.
    Mr. Connolly. I thank you.
    Mr. Ragsdale, your title is Acting Deputy Director?
    Mr. Ragsdale. It is.
    Mr. Connolly. Why are you Acting?
    Mr. Ragsdale. I am a member of the Senior Executive 
Service. I am permanently in a different job at ICE, but I have 
been Acting since June, early June.
    Mr. Connolly. But why isn't there a permanent deputy 
director?
    Mr. Ragsdale. The last permanent deputy director just left 
the post and we are looking to see when the job will be filled 
permanently.
    Mr. Connolly. Mr. Aguilar, your title is Acting 
Commissioner.
    Mr. Aguilar. Yes, sir.
    Mr. Connolly. Why are you Acting?
    Mr. Aguilar. My answer is very simple, sir: the 
commissioner that was nominated was not confirmed.
    Mr. Connolly. By the U.S. Senate.
    Mr. Aguilar. By the U.S. Senate back in the December, and 
the Secretary asked me to step in; I did back in January.
    Mr. Connolly. And, Mr. Edwards, you are an Acting Inspector 
General. Why are you Acting?
    Mr. Edwards. Well, having a permanent inspector general is 
desirable, but I can tell you, even as Acting, I have not taken 
this job as Acting for a day; I have ensured and made sure that 
I act very independent. The secretary, deputy and all of the 
component heads treat me as being very----
    Mr. Connolly. No, Mr. Edwards, absolutely true. By all 
accounts, all three of you have sterling reputations and are 
doing a great job in service to your Country and to the 
respective agencies. I am asking a different question, though. 
Why don't we have a permanent, an inspector general, as opposed 
to an acting inspector general?
    Mr. Edwards. There is no nominee yet, sir.
    Mr. Connolly. There is no nominee. Had there been one?
    Mr. Edwards. There was one, yes.
    Mr. Connolly. And what happened to that?
    Mr. Edwards. The Senate did not confirm.
    Mr. Connolly. Senate did not confirm.
    Mr. Edwards. Let me take back. The Senate had a 
confirmation hearing and they did not vote on it.
    Mr. Connolly. Did not vote on it. They must be very busy 
over there, that distracts them from their advise and consent 
role.
    I just want to ask each of you to comment on the 
relationship you have with the intelligence sections of your 
respective agencies. How would you characterize the 
relationship between, for example, DHS, Mr. Edwards, OIG 
investigators and the intelligence sections, various 
intelligence sections of DHS?
    Mr. Edwards. Sir, I just want to go back. You asked me the 
question about the nominee. One last point I wanted to add to 
that question.
    Mr. Connolly. Sure.
    Mr. Edwards. The nominee to the press reporting withdrew 
herself. That is the latest on that.
    Mr. Connolly. Sometimes, though, somebody--I mean, I can't 
judge the merits of the case, but a reasonable human being at 
some point is unwilling to put their life entirely on hold for 
months and months and months and years and years and years, and 
may very well decide to get on with their life and withdraw 
their nomination because it is just more than a mortal can 
bear.
    Mr. Edwards. Answering your question about working with 
intelligence within DHS, I am also part of the intelligence IG 
form, so we do a number of inspections on the intelligence 
portion of DHS, but I am also among the 15 or so IC committee 
members, I am an active member of that as well.
    Mr. Connolly. But I guess I am asking a little different 
question, and I welcome Mr. Aguilar and Mr. Ragsdale to also 
comment on this. In theory, if I am doing highly classified 
intelligence work that needs to be carefully guarded in terms 
of what we are trying to do and the mission is very important, 
I may not want some pain in the neck IG staffer coming into my 
shop and mucking around and perhaps, like an elephant in a 
china shop, stepping on very fragile glass that we worked so 
carefully to protect or create or whatever, and my cooperation 
might just be culturally wanting, for reasons I think are good. 
Maybe you don't, but--I don't mean I, the congressman, but if I 
were in that situation, you could see how that mentality might 
develop. Is that a problem, in getting cooperation from 
intelligence sections in respective agencies? Mr. Ragsdale?
    Mr. Ragsdale. Well, from my perspective, we understand our 
obligation as a component to respond to the IG. Certainly, the 
IG, like ICE employees that have security clearances, in fact, 
make sure that those are appropriate at the appropriate levels 
to make sure the information flows freely. Again, the inspector 
general sits in a unique place in the department, and we have 
an obligation to respond. So I know of no problem in that 
regard.
    If I may also just add to your first question. This job is 
not a political appointment; it is not a Senate confirmation 
job.
    Mr. Aguilar. To your question, sir, specific to 
intelligence, I think all of us recognize the importance of 
intelligence to any kind of enforcement work that we are 
responsible for carrying out. In Customs and Border Protection, 
we actually took the affirmative act of not only creating, when 
we created our office of intelligence, but we created our 
office of intelligence and investigative liaison because of 
that recognition. So our head of intelligence has basically, I 
am going to say, daily, ongoing contact with our investigative 
partners in order to ensure that any kind of intelligence that 
is gleaned either by us or by them is instituted in carrying 
forth our responsibilities, to include ethics, integrity, and 
corruption.
    Mr. Connolly. Just a final point. I am over my time, but, 
Mr. Edwards, would you concur it really hasn't been much of a 
problem, cooperation?
    Mr. Edwards. Well, at the highest level the cooperation is 
there, at the best level. I don't want to sit here and say that 
it is a perfect marriage. That is why we have IGs. IGs will go 
and say they are there to help and, really, some people may not 
like that part of they are there to help. At the same time, if 
there are instances that there is not cooperation, we have a 
resolution and de-confliction process. So, overall, it has been 
working very well in my tenure at DHS OIG.
    Mr. Connolly. Thank you very much.
    My time is up, Mr. Chairman. Thank you again for holding 
this hearing.
    Mr. Platts. I thank the gentleman and thank him for his 
participation.
    I am going to yield to myself again for a second round, a 
couple follow-up questions. One is initially, I guess, more of 
a comment.
    Inspector General Edwards, you had stated earlier 
absolutely no turf battles today, and that is, I think, an 
important message to be heard today, which probably two years 
or so ago might have been very different, and that is an 
important part of this hearing; where are we, where have we 
come from, where are we heading, and that is, I think, 
critically important.
    And then related to that, Commissioner Aguilar, you 
referenced, again, the positive interactions and MOUs and the 
cooperation and kind of more unprecedented understanding of 
cases that you have because of that cooperation. But you also 
said yet we have challenges ahead of us. What would you, and 
then if I could ask the other two as well, each of you to 
identify, what are the greatest challenges, as we go forward, 
to maintain and further enhance the cooperation that is ongoing 
so that, two years from now, we are not back to where we have 
department personnel, IG personnel saying, hey, there is no 
real relationship here, there is no cooperation, and that we 
don't revert back? So what are those challenges and how do we 
guard against going back?
    Mr. Aguilar. I think one of the challenges that we have at 
this point in time is making sure that we do everything that we 
can to institutionalize what we have now come to recognize the 
right way of doing business. I lived this two years ago, and 
two years ago it was not a good way of doing business. When the 
component heads got together, decided to move forward, we 
started making some strides immediately. The advancements that 
we have made have been tremendous.
    There is a recognition on the part of us; more importantly, 
I think, there is a recognition on the part of our people on 
the ground, the boots on the ground that really do the work. So 
it is continuing the relationship; it is building the 
institutionalization of these processes to ensure that we do 
not step back, regardless who is sitting at these chairs five, 
ten years from now.
    Mr. Platts. And before the others answer, in reference to 
Mr. Connolly's question, identifying all three of you as 
Acting, given the direction we are heading with all three of 
you as Acting, maybe we don't want permanent. Maybe Acting is 
good. Because we seem to be heading in that right direction and 
that cooperation. The three of you aren't just here at the 
table today together, but are interacting on a regular basis, 
and your subordinates. And I think that is an important aspect, 
is putting in place the structure so, as you well stated, 
whoever will be in these seats in the coming years, if it is 
not you, that we still have the same level of cooperation.
    General Edwards?
    Mr. Edwards. I totally agree with what the commissioner 
said. Having these MOUs solidifies that. We have to continue in 
that direction; we cannot go back. But also within DHS we know 
it is inherently DHS's problem and we are trying to address it. 
My hope is that I need to have an MOU with the Bureau.
    Mr. Platts. I am sorry, say that again, with the Bureau?
    Mr. Edwards. Yes. I have been working for the last several 
months meeting with officials from FBI, and I am hopeful. We 
have agreement in the majority of areas, and as long as IG 
independence and transparency is attained, I am really, really 
hopeful that we will have a signed MOU that we all can work 
together jointly and get this, because it is a problem that we 
all need to address, and everybody's heart is in the right 
place and we just need to move forward.
    Mr. Platts. Mr. Ragsdale?
    Mr. Ragsdale. I would just add, also, as the commissioner 
and the inspector general said, what we certainly want to see 
is a complete codification of sort of the business practice 
that has led to an appropriate level of workload at each of our 
various components at the front end. As we all staff the Joint 
Intake Center, or as we know it, the JIC, we want to make sure 
that at the earliest possible stage the cases are assigned out 
for early action.
    From the ICE OPR perspective, we complete most cases, or at 
least for the year, about 80 percent in about six months, and 
we are actually doing a little better so far in fiscal year 
2012. We want to make sure that we can continue to do that, and 
the way to do that is obviously to have sort of the cases 
separated as early as possible.
    Mr. Platts. And that goes to, I guess, a follow-up about 
the challenges that none of the three of you referenced, and 
that is the caseload and that early identification. Is it safe 
to say, IG, that the roughly 600 or so, the two turn-backs 
combined, that going forward there is probably going to be an 
effort to better identify them up front or more quickly to go 
back, versus holding them and then turning them back at a 
latter date? Is that a fair statement about the approach?
    Mr. Edwards. Absolutely. I mean, we have given more 
authority to the SACs in the field. For instance, if there is a 
SAC and they have 10 agents, and there is an average of about 
nine cases a person, and the more allegations that come in, 
rather than adding to the inventory, the SAC needs to make a 
quick, immediate judgment and assess it, and then look at the 
case details and transfer it over to ICE OPR. So, system-wise, 
we have put processes in place and also this cooperation that 
we are venturing towards and want this to happen. I think this 
is a good way of addressing the cases now and in the future.
    Mr. Platts. With the caseload that has come back, the 
number of cases that have come back, certainly it has increased 
significantly the caseload that your entities are handling. Do 
you envision, at your level, making requests for additional 
staff investigators, as well as the IG has been making at the 
department level?
    Mr. Ragsdale. One of the things that does make ICE somewhat 
unique in this situation is because we have between 6,500 and 
7,000 special agents in homeland security investigation, ICE 
OPR is able to, internally within ICE, get extra investigative 
support sort of internally. In sort of an era of sort of 
limited resources, we have to be very careful about sort of 
balancing requests for additional personnel, but we do have the 
luxury at least for what I would say a built-in surge capacity 
at ICE that will let us sort of deal with this both now and 
going forward.
    Mr. Platts. Okay.
    Mr. Aguilar. In the case of CBP, Chairman, we have a total 
of about, as of this morning, 199 investigators assigned to 
these types of cases. At the present time, I think between both 
entities here, we have probably close to 50 officers; of those 
officers assigned to either one of these entities on either 
side of me. They serve as force enhancers to ICE and to IG. I 
believe that we could add some more to ICE and IG from within 
the ranks of the ones that we have now. So at the present time 
I think we are in good shape.
    Mr. Platts. Okay. Thank you.
    Inspector General Edwards, you talked about the 140-plus 
cases that you are currently working with the FBI, and then 
also about working to try to get an MOU with the Bureau. How 
would you describe that relationship, where it is today versus 
a year ago? You have been in your position about a year and a 
half, maybe from when you came in to where it is today, and 
where you are trying to get with that MOU?
    Mr. Edwards. Right after I signed the MOU with Commissioner 
Burson, my next step was to work with the Bureau, so I met with 
officials there and talked to them about the IG independence 
and also having an agreement with them, because in March of 
2010 we didn't sign the BCTF MOU because it didn't take into 
account IG independence. So I expressed my desire to work with 
them and they seemed very interested and willing to do as well. 
But as we have progressed over several months, there are key 
issues that they are working, and I am hopeful that we will get 
that resolved. I am hopeful before my tenure is up that an MOU 
is signed.
    But at the same time, at the field level, the 142 cases, 
whether it is the Bureau, DEA, ATF, ICE, or CBP IA, at the 
field level the agents really work well together, because when 
you look down, there are only a few agents; they have to work 
together. The relationship is great. Even though we haven't 
signed the BCTF MOU, there are a number of places we are 
working cases together. It is just in the headquarters level we 
need to come to an agreement so we set a precedence in place 
that, going forward, we are going to work this way, have a 
signed MOU, and I am hopeful of that.
    Mr. Platts. Okay. Thank you.
    My colleague from Texas talked about the McAllen situation. 
I realize you can't go into the details there, but also how it 
relates at headquarters with the top two officials at the 
Office of Investigations being on leave as well. That is 
related to those ongoing investigations and the grand jury that 
is currently seated, is that correct? I think the approach of 
transparency as those investigations are concluded, then the 
more information you will be able to share, what did transpire 
at that specific center and then how the Department has 
responded to those allegations.
    A specific question as the type of investigations, just so 
I have a better understanding, criminal versus administrative. 
Each of you or if one of you can appropriately explain what is 
the difference in level of misconduct and how, when we talk 
about in the testimony there is a lot about the number of 
investigations, this many that were criminal and being pursued, 
but this many that are administrative. Where is that dividing 
line between administrative wrongdoing and criminal?
    Mr. Edwards. Well, let me start out, sir. When we get an 
allegation, either through our DHS OIG hotline or any sources 
through the JIC, the Joint Intake Center, when we look at an 
allegation, essentially if it is of administrative in nature 
and we are not going to work it--we call it box 1, box 2, and 
box 3--we will send it to the component level and ask them to 
work it administratively----
    Mr. Platts. And what would constitute that type of case?
    Mr. Edwards. Let's say somebody is cheating on a T&A, time 
and attendance. It is more of an administrative nature that the 
component needs to deal with. So they will have their internal 
affairs component look into that, work it. But if it is 
something of administrative in nature but it is at a higher 
level, the threshold is higher, than we will ask them to 
investigate it administratively and then report back to us what 
the closure, what the outcome was.
    If it is criminal in nature, then we will take the case and 
then looking at the location where we are, suppose we are in 
south Texas and it is something to do with ICE HSI, then we 
will work jointly with them, because for that particular matter 
ICE Homeland Security is better equipped because they are the 
subject matter expert, so we will work with them jointly.
    So a lot of these cases OIG is not working independently; 
they are working jointly with each one of the components or 
other law enforcement partners.
    We also have--we need to notify the Bureau within 30 days, 
the OIG and the Bureau, according to the attorney general 
guidelines, when we open a case at the district that this case 
is being opened. So when we notify them, many times they will 
want to work with us, or they will get the lead and they will 
ask us if they want to work with us. So the relationship was 
not the best, but it is getting better, and I am hopeful that 
just like we are sitting here together and saying that we are 
working well, my hope is that the Bureau will be sitting with 
us and say we all are working well together.
    Mr. Platts. Is it fair to say that line between 
administrative case being investigated and a criminal, it is a 
judgment call by your investigators that pilfering supplies may 
be handled administratively, but if it got to a point where 
they are embezzling not just supplies, but large amounts of 
equipment or something to get to a level that it would rise to 
a criminal? Is that a fair statement, that there is a 
subjective determination here?
    Mr. Edwards. And based on our experience and cases in the 
past, there is a certain amount of judgment call one needs to 
make. Also, at the end of the day, is the U.S. attorney going 
to accept it?
    Mr. Ragsdale. I would add that is exactly right. If the 
investigation may not be, clearly on its face, either 
administrative or criminal, the special agent would take the 
case to the U.S. Attorney's Office for a charging decision, and 
recognizing that the Department of Justice, like every other 
agency, has limited resources, while the facts may sound both 
administratively or in a criminal violation, the resolution 
just based on sort of the gravity of them may sort of favor one 
or the other.
    Mr. Platts. And my follow-up, there is probably a good 
number of cases that maybe could be pursued criminally, but 
they are at a level where that is not going to happen, but you 
still do pursue them with administrative punishment or 
repercussions internally?
    Mr. Ragsdale. That is exactly right. Just like there is a 
range of sort of ability to investigate and sort of prosecute 
the conduct, it could either be through, again, a criminal 
prosecution or an administrative resolution that could lead to 
firing or a suspension.
    Mr. Platts. Okay.
    Mr. Towns. No further questions, Mr. Chairman, but I want 
to thank them because it is very encouraging to know that they 
are working together, because I think in government, as you 
know, a lot of times we waste resources because we just don't 
have a working relationship; we don't talk to each other. So 
sometimes we are involved in duplication and, of course, you 
seem to have been able to sort of work that through and work it 
out.
    And sometimes you have agencies that they don't want to 
share and they just want to do whatever they are doing and 
don't want anybody to--and a lot of times they are not even in 
the best position to even follow through or to carry it out. To 
come this morning and to hear you are working together and that 
your Memorandum of Understanding is something that all of you 
respect, I want you to know that I am really encouraged by 
that.
    However, when I look at the fact that 220,000 employees and 
only 219 investigators, I think I get a little nervous when I 
look at that. I understand you said that you support the 
budget, but sometimes we support when it is not really the 
proper thing to do.
    But I think that is something that needs to be talked 
about, Mr. Chairman, and to see whether or not that is adequate 
for the 220,000, only to have 219 investigators. That seems to 
me to be inadequate. But here again I think it is something 
that needs to be explored and looked at further.
    I understand your position, Mr. Edwards. It is very clear 
to me that you support the budget. I understand that. I do 
understand it, but sometimes we have to go beyond that.
    So thank you, Mr. Chairman.
    Mr. Platts. I thank the gentleman.
    I will wrap up with one, again, thanks to each of you for 
your testimony here today, your written testimony, but, most 
importantly, day in and day out your leadership of your 
respective components and the importance of what you are doing 
in a broad sense and as you are focused on that more rare bad 
apple, and not just holding them accountable, but also because 
of the importance of what your department and component agency 
missions are.
    So when that individual who is, unfortunately, corrupt is 
letting products come through that shouldn't, and they may 
think it is less of a threat, but it might be weapons; if it is 
persons, it might be terrorists, not what they think, just 
somebody, an illegal alien, but it may be an enemy of our 
Nation. So all the more what you are doing is critically 
important.
    And, Mr. Towns, just well captured the message that you 
conveyed in our interactions, both staff and members, prior to 
the hearing and today, is, I think, a very important message 
and, most importantly, a most important direction that you are 
following, and that is let turf battles be on the football turf 
or the soccer turf, not in public service or government, and to 
truly work hand in hand with each other; and that is clearly 
what you are seeking to do. As the commissioner said, that 
doesn't mean there aren't challenges yet to institutionalize 
this approach so it is pervasive and continuous. That is 
something we all up here, we certainly know the challenge of 
working to improve our cooperation.
    But I commend you for the approach you are taking and very 
much thank you for your dedication to our Nation and our 
citizens.
    We will keep the record open for seven days for any other 
materials. This hearing stands adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
